No. 20-257
IN THE

Supreme Court of the United States
————
CHIPOTLE MEXICAN GRILL, INC., et al.,
Petitioners,

v.

MAXCIMO SCOTT, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
————
BRIEF OF RETAIL LITIGATION CENTER, INC.,
AND RESTAURANT LAW CENTER AS
AMICI CURIAE SUPPORTING PETITIONERS
————
DEBORAH R. WHITE
RETAIL LITIGATION
CENTER, INC.
99 M Street, S.E.
Suite 700
Washington, D.C. 20003
ANGELO I. AMADOR
RESTAURANT LAW CENTER
2055 L Street, N.W.
Suite 700
Washington, D.C. 20036

PAUL DECAMP
Counsel of Record
GAREN E. DODGE
EPSTEIN, BECKER &
GREEN, P.C.
1227 25th Street, N.W.
Suite 700
Washington, D.C. 20037
(202) 861-0900
PDeCamp@ebglaw.com

Counsel for Amici Curiae
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTEREST OF THE AMICI CURIAE................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

4

I. APPLYING
THE
SECOND
CIRCUIT’S
STANDARD TO CASES IN WHICH COURTS
HAVE GRANTED DECERTIFICATION SHOWS
HOW HARMFUL THAT STANDARD CAN BE ..

4

A. Espenscheid v. DirectSat USA, LLC ...

4

B. Zavala v. Wal Mart Stores Inc. ...........

7

C. Anderson v. Cagle’s, Inc. .....................

9

II. THE SECOND CIRCUIT’S DECERTIFICATION
STANDARD IS INCONSISTENT WITH THE
PURPOSE OF AN FLSA COLLECTIVE
ACTION. ......................................................

11

CONCLUSION ....................................................

13

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Anderson v. Cagle’s, Inc.,
488 F.3d 945 (11th Cir. 2007) ........... 3, 9, 10, 12
Espenscheid v. DirectSat USA, LLC,
705 F.3d 770 (7th Cir. 2013) ..... 3, 4, 5, 6, 10, 12
Hoffmann-LaRoche Inc. v. Sperling,
493 U.S. 165 (1989) ............................... 3, 11, 12
In re School Asbestos Litig.,
789 F.2d 996 (3d Cir. 1986) ......................

9

Kirtsaeng v. John Wiley & Sons, Inc.,
568 U.S. 519 (2013) ...................................

1

Lewis v. Governor of Ala.,
944 F.3d 1287 (11th Cir. 2019) .................

2

South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080 (2018) ...............................

1

Zavala v. Wal Mart Stores Inc.,
691 F.3d 527 (3d Cir. 2012) ................ 3, 7, 8, 10
RULES
Fed. R. Civ. P. 23 ..........................................

3

OTHER AUTHORITIES
Am. Bar Ass’n Section of Labor &
Employment Law, The Fair Labor
Standards Act (3d ed. 2015) .....................

11

BRIEF OF RETAIL LITIGATION CENTER, INC.,
AND RESTAURANT LAW CENTER AS
AMICI CURIAE SUPPORTING PETITIONERS
The Retail Litigation Center, Inc., and the Restaurant
Law Center respectfully submit this brief as amici
curiae in support of petitioners.
INTEREST OF THE AMICI CURIAE
The Retail Litigation Center, Inc. is the only trade
organization solely dedicated to representing the retail
industry in the judiciary. The Retail Litigation Center
’s members include many of the country’s largest and
most innovative retailers. Collectively, they employ
millions of workers throughout the United States,
provide goods and services to tens of millions of consumers, and account for tens of billions of dollars in
annual sales. The Retail Litigation Center seeks to
provide courts with retail-industry perspectives on
important legal issues affecting its members, and to
highlight the potential industry-wide consequences
of significant pending cases. Since its founding in
2010, the Retail Litigation Center has participated as
an amicus in more than 150 judicial proceedings
of importance to retailers. Multiple courts, including
this Court, have cited the RLC’s briefs favorably. See,
e.g., South Dakota v. Wayfair, Inc., 138 S. Ct. 2080,
2097 (2018); Kirtsaeng v. John Wiley & Sons, Inc., 568
U.S. 519, 542 (2013).


Pursuant to Rule 37.2(a), counsel of record for all parties
received timely notice of intent to file this brief, and all parties
have consented to its filing. In accordance with Rule 37.6, no
counsel for a party authored this brief in whole or in part, and no
person or entity other than amici curiae or their counsel made a
monetary contribution intended to fund the brief’s preparation
or submission.

2
The Restaurant Law Center is a public policy
organization affiliated with the National Restaurant
Association, the largest foodservice trade association
in the world. The industry comprises more than one
million restaurants and other foodservice outlets
employing more than 15 million people. Restaurants
and other foodservice providers are the nation’s secondlargest private-sector employers. The Restaurant Law
Center provides courts with the industry’s perspective
on legal issues significantly affecting the industry.
Specifically, the Restaurant Law Center highlights
the potential industry-wide consequences of pending
cases such as this one, through amicus briefs on behalf
of the industry. See, e.g., Lewis v. Governor of Ala.,
944 F.3d 1287, 1302 n.15 (11th Cir. 2019) (en banc)
(citing Restaurant Law Center amicus brief).
The Retail Litigation Center and the Restaurant
Law Center (together, “the Amici”), as well as their
members, have a significant interest in the outcome
of this case. Employers in the retail and foodservice
sectors often find themselves defending collective actions
under the Fair Labor Standards Act (the “FLSA”).
A key consideration in these cases is the standard the
court will apply in deciding whether, as trial approaches,
the opt-in plaintiffs are sufficiently similarly situated
to warrant collective adjudication. That single issue
has an outsized effect on the litigation. An overly
expansive view of similarity all but forces most defendants to settle regardless of the merits of the plaintiffs’
claims, while an unduly narrow notion of similarity
may be insufficient to safeguard worker protections
embodied in the FLSA.

3
SUMMARY OF ARGUMENT
The Second Circuit appears to have found itself
trapped in a false dichotomy, believing that it had
only two choices available in selecting the appropriate
standard for addressing FLSA decertification. The
court rejected the approach of adopting the Rule 23
framework wholesale as inconsistent with the text of
the FLSA. But the court then seemed to view its only
other option to be a “minimal commonality” standard
devoid of any consideration of litigation reality, docket
management, fairness, efficiency, or the policies behind
FLSA collective actions.
Three cases—Espenscheid v. DirectSat USA, LLC,
705 F.3d 770 (7th Cir. 2013); Zavala v. Wal Mart Stores
Inc., 691 F.3d 527 (3d Cir. 2012); and Anderson v.
Cagle’s, Inc., 488 F.3d 945 (11th Cir. 2007)—especially
illustrate why the minimal commonality approach
adopted by the Second Circuit is so pernicious in practice and they highlight the practical considerations
that properly lead courts to decertify collective actions.
Indeed, those cases provide a telling glimpse into
what litigation would have looked like if the courts
had followed the Second Circuit’s rule and the cases
proceeded to trial.
Moreover, the Second Circuit’s standard is starkly
at odds with the collective action’s raison d’être. This
Court has emphasized that the main purpose of a
collective action is to facilitate the fair and efficient
resolution of FLSA claims. See Hoffmann-LaRoche
Inc. v. Sperling, 493 U.S. 165 (1989). Where, however,
adjudicating claims requires either highly individualized inquiries or evidentiary and other procedural
shortcuts that would undermine litigants’ substantive
rights, proceeding collectively is contrary to the purpose of the FLSA.

4
ARGUMENT
I. APPLYING THE SECOND CIRCUIT’S STANDARD
TO CASES IN WHICH COURTS HAVE GRANTED
DECERTIFICATION SHOWS HOW HARMFUL THAT
STANDARD CAN BE.
Courts have decertified collective actions, or affirmed
decertification, in numerous published and unpublished
decisions across the country. What nearly all of those
cases have in common is that they probably would have
come out the other way under the Second Circuit’s
standard. Where any single common issue of law or
fact suffices to prevent decertification, courts would
have to deny decertification in almost every case.
It is not unusual for at least one common issue to
exist in an FLSA collective action, such as whether the
alleged violation was willful, whether the employer
acted in good faith reliance on advice of counsel, or
whether a particular task or group of tasks constitutes
compensable work. Nevertheless, individualized issues
can and do overtake the common questions in many
cases, leaving a trial court with the choice of decertifying the collective or allowing an utterly unmanageable
and unfair train wreck of a case to proceed to trial.
Several examples of cases in which courts have decertified collectives—and that would likely have come
out differently under the Second Circuit’s minimal
commonality standard—illustrate the point.
A. Espenscheid v. DirectSat USA, LLC
In Espenscheid v. DirectSat USA, LLC, 705 F.3d
770 (7th Cir. 2013), technicians who install and repair
residential satellite equipment sued their employer
alleging, inter alia, that the company required them
not to report time spent on certain job activities as
hours worked, thereby leading to uncompensated work,

5
and failed to provide premium overtime pay under the
FLSA. Id. at 772-73. The district court conditionally
certified an FLSA collective, resulting in 2,341 plaintiffs.
Id. at 772. “[W]hen it became apparent that the trial
plan submitted by the plaintiffs was infeasible[,]” the
district court decertified the collective.
On appeal, the Seventh Circuit noted the plaintiffs’
allegation that the employer “forb[ade] the technicians
to record time spent on certain tasks, such as calling
customers, filling out paperwork, and picking up tools
from one of the company’s warehouses.” Espenscheid,
705 F.3d at 773. The workers received piece-rate compensation, or a set amount of money per job. Id. at
772-73. Given the piece-rate system and the reality
that “workers differ in their effort and efficiency[,]” the
court observed that “some, maybe many, of the technicians may not work more than 40 hours a week and
may even work fewer hours; others may work more
than 40 hours a week.” Id. at 773. Indeed, “[v]ariance
would also result from different technicians’ doing
different tasks, since it’s contended that the employer
told them not to report time spent on some of those
tasks, though—further complicating the problem of
proof—some of them reported that time anyway.” Id.
at 773-74.
The plaintiffs proposed a trial based on “representative” testimony from 42 members of the collective.
Espenscheid, 705 F.3d at 774. The court observed that
“even if the 42 . . . turned out by pure happenstance
to be representative in the sense that the number of
hours they worked per week on average . . . was equal
to the average number of hours of the entire class, this
would not enable the damages of any members of the
class other than the 42 to be calculated.” Id. The
court noted “the complication created by the piece-rate

6
system[,]” under which “the hourly wage varies from
job to job and worker to worker.” Id. A “further
complication” involved “a worker who underreported
his time, but did so, DirectSat offers to prove, not
under pressure by DirectSat but because he wanted to
impress the company with his efficiency in the hope
of obtaining a promotion or maybe a better job
elsewhere[.]” Id. In addition, “the technicians have no
records of the amount of time they worked but didn’t
report on their time sheets.” Id. at 774-75.
The court observed that on this record, “to determine damages would, it turns out, require 2341
separate evidentiary hearings, which might swamp
the Western District of Wisconsin with its two district
judges.” Espenscheid, 705 F.3d at 773. The court
remarked that “it’s not as if each technician worked
from 8 a.m. to 5 p.m. and was forbidden to take a lunch
break and so worked a 45-hour week . . . but was paid
no overtime.” Id. In that scenario, “each technician’s
damages could be computed effortlessly, mechanically,
from the number of days he worked each week and
his hourly wage. . . . Nothing like that is possible
here.” Id. The court criticized the unworkability of
the plaintiffs’ proposed trial plan: “Essentially they
asked the district judge to embark on a shapeless,
freewheeling trial that would combine liability and
damages and would be virtually evidence-free so far
as damages were concerned.” Id. at 776. The court
warned that “if class counsel is incapable of proposing
a feasible litigation plan . . . , the judge’s duty is at an
end.” Id. The court affirmed the order decertifying the
collective. Id. at 777.
Espenscheid would likely have come out differently
in the Second Circuit. Applying the Second Circuit’s
minimal commonality framework, the single issue of

7
whether the company directed the workers not to record
time spent on certain tasks might suffice to preclude
decertification. In that case, the district court and the
parties would then have had to face the stunningly
burdensome prospect of more than 2,300 mini-trials to
sort out the many issues related to each employee,
such as hours worked and efficiency, thereby resulting
in a “shapeless, freewheeling trial” that could have
“swamp[ed]” the two district court judges, hardly a
model of judicial economy.
B. Zavala v. Wal Mart Stores Inc.
In Zavala v. Wal Mart Stores Inc., 691 F.3d 527 (3d
Cir. 2012), employees of various cleaning companies
that provide cleaning services in Wal-Mart stores sued
Wal-Mart alleging, inter alia, that the company was
their employer and owed them overtime under the
FLSA. Id. at 530-31. Following conditional certification of the case as a collective action, more than 100
individuals opted into the case. Id. at 531, 534. After
discovery, the district court granted Wal-Mart’s
motion to decertify the collective. Id. at 534.
On appeal, the Third Circuit noted several points
of similarity in the record. For example, “Wal-Mart
distributed a maintenance manual that went into exacting detail about how to clean floors, shelves, bathrooms,
and other parts of the store” and “mandated procedures that all employees and contractors were to use.”
Zavala, 691 F.3d at 538. The company’s store managers “had final authority to approve or disapprove
members of cleaning crews[,]” and the evidence suggested that they “fired members of cleaning crews and
that Wal-Mart employees regularly directed cleaning
crews in conducting their work in the store.” Id.
Moreover, the plaintiffs alleged “a common scheme to
hire and underpay illegal immigrant workers[.]” Id.

8
The record, however, also reflected significant dissimilarities. For example, “the putative class worked
in 180 different stores in 33 states throughout the
country and for 70 different contractors and subcontractors. The individuals worked varying hours and
for different wages depending on the contractor.”
Zavala, 691 F.3d at 538 (quotation omitted). In addition,
“different defenses might be available to Wal-Mart
with respect to each proposed plaintiff, including that
individual cleaners were not Wal-Mart employees, as
that term is defined by the FLSA, and that it paid
some of its contractors an adequate amount to support
an appropriate wage for the cleaners.” Id.
The court observed that the “common links” in the
case “are of minimal utility in streamlining resolution
of these cases. Liability and damages still need to be
individually proven.” Zavala, 691 F.3d at 538. Thus,
“[c]onsidering the numerous differences among members
of the proposed class . . . , we conclude that the Plaintiffs have not met their burden of demonstrating that
they are similarly situated.” Id. The court affirmed
the order decertifying the collective. Id.
Under the Second Circuit’s standard, however, the
collective would likely have remained certified. For
example, the alleged scheme to use illegal immigrant
labor “potentially demonstrates . . . willfulness in violating the FLSA[,]” Zavala, 691 F.3d at 538, thereby
apparently precluding decertification under the Second
Circuit’s approach. Trial would have required evidence regarding each of the 100-plus opt-in plaintiffs
in the collective as to both liability and damages.
The trial would have been a collective adjudication in
name only, with the reality consisting of several dozen
largely, if not entirely, separate trials.

9
C. Anderson v. Cagle’s, Inc.
Anderson v. Cagle’s, Inc., 488 F.3d 945 (11th Cir.
2007), involved production workers of a chicken processing company alleging that they had not been
compensated for donning and doffing of protective
clothing, or for certain production work, under the
FLSA. Id. at 949. The district court conditionally
certified the collective, eventually leading to more than
1,800 plaintiffs joining the case. Id. at 950. After
discovery, the defendants moved to decertify the collective, and the district court granted their motions. Id.
On appeal, the Eleventh Circuit affirmed. The court
noted that the case presented a “wide variety of work
assignments and varied compensation structures affecting the purported class.” Anderson, 488 F.3d at 952
(quotation omitted). The defendants included various
separate entities, with separate “locations” and “work
forces[.]” Id. “Among the numerous distinctions, we
find particularly important evidence that, unlike all of
the named plaintiffs, many of the opt-in plaintiffs are
not unionized. A key defense in this case . . . requires
the existence of a collective bargaining unit.” Id. at
954 n.8. The court cautioned that “the availability
of a defense to some but not all of the putative class
members ‘clearly poses significant case management
concerns.’” Id. (quoting In re School Asbestos Litig.,
789 F.2d 996, 1011 (3d Cir. 1986)).
The court commented that “logically the more material
distinctions revealed by the evidence, the more likely
the district court is to decertify the collective action.”
Anderson, 488 F.3d at 953. And “although the FLSA
does not require potential class members to hold identical positions, the similarities necessary to maintain
a collective action . . . must extend beyond the mere
facts of job duties and pay provisions.” Id. (quotations

10
omitted). Were it otherwise, the court noted, “it is
doubtful that” the collective action device “would
further the interests of judicial economy, and it would
undoubtedly present a ready opportunity for abuse.”
Id. (quotation omitted).
As with Espenscheid and Zavala, it seems very
likely that under the Second Circuit’s standard, the
collective in Anderson would have remained certified.
Issues such as the appropriateness of the defendants’
practices for measuring compensable production time
would probably suffice to preclude decertification.
Yet at trial, the case would have splintered into
numerous separate mini-trials as more than 1,800
plaintiffs presented evidence regarding their various
work circumstances, addressing varying practices at
different locations, working for different employers,
subject to different defenses.
* * *
As these three cases show, the net result of the
Second Circuit’s minimal commonality rule is to tie
the district courts’ hands, forcing trial judges to allow
unmanageable, docket-clogging litigation to proceed to
trial. Some federal districts would be overwhelmed,
as noted in Espenscheid. The much better approach
is, as these other courts have done, to apply common
sense and sound docket management principles to the
question of interpreting the similarly situated standard in the decertification context. In short, if a case
is collective in theory, but in practice will require
plaintiff-by-plaintiff trials, then the workers are not
similarly situated for purposes of the FLSA. Federal
trial judges should have the discretion to make that
determination and without being bound by the Second
Circuit’s myopic standard.

11
II. THE SECOND CIRCUIT’S DECERTIFICATION
STANDARD IS INCONSISTENT WITH THE PURPOSE
OF AN FLSA COLLECTIVE ACTION.
This Court discussed the purposes behind the FLSA’s
collective action device in Hoffmann-LaRoche Inc. v.
Sperling, 493 U.S. 165 (1989). Speaking in the context
of an action under the Age Discrimination in Employment
Act, which incorporates the FLSA’s collective action
procedure, the Court stated that “[a] collective action
allows . . . plaintiffs the advantage of lower individual
costs to vindicate rights by the pooling of resources.
The judicial system benefits by efficient resolution in
one proceeding of common issues of law and fact
arising from the same alleged . . . activity.” Id. at 170.
Most courts tailor their decertification analysis to
serve the twin purposes of the collective action identified in Hoffmann-LaRoche. Thus, “courts generally
consider three factors: (1) the disparity or similarity of
the factual and employment settings of the individual
plaintiffs, (2) the various defenses available to the
defendant and whether those may be asserted collectively
or individually as to each plaintiff, and (3) fairness and
procedural considerations.” Am. Bar Ass’n Section of
Labor & Employment Law, The Fair Labor Standards
Act at 17-178 (3d ed. 2015) (collecting cases).
The standard embraced by the Second Circuit, however, conflicts with the compelling rationale behind
Hoffmann-LaRoche. If a collective action contains at
least one issue of law or fact common to all plaintiffs,
then the approach followed by the Second Circuit
would lead the case to trial on a collective basis. Such
a rule claims to apply no matter how minor or tangential the point of similarity may be to the case as a
practical matter, so long as the issue is technically
material to at least one asserted claim or defense. Nor

12
does the rule apparently yield when significant factual
disparities among the collective demonstrate that
plaintiff-specific inquiries will overwhelm the trial and
in effect require mini-trials for each plaintiff.
The Second Circuit’s approach therefore undermines,
rather than furthers, this Court’s sound teachings.
A case that would require dozens, hundreds, or
thousands of individual hearings, where in effect each
plaintiff has a separate trial, simply does not result in
“lower individual costs” for plaintiffs. HoffmannLaRoche, 493 U.S. at 170. Nor does such an unwieldy
trial deliver benefits to the judicial system through
“efficient resolution in one proceeding” of the claims
and defenses pertinent to the collective. Id. See also
Anderson, 488 F.3d at 953 (cautioning that too lax a
standard for evaluating “similarly situated” would not
“further the interests of judicial economy” and “would
undoubtedly present a ready opportunity for abuse”)
(quotations omitted); Espenscheid, 705 F.3d at 773
(warning that trial involving 2,341 evidentiary hearings would “swamp the Western District of Wisconsin
with its two district judges”).
In short, the Second Circuit’s approach is neither
good law nor sound policy. Nothing in the text or
legislative history of the FLSA’s collective action provision suggests that Congress intended to require
courts to take on unmanageable proceedings, flood
their dockets, and increase cost and unfairness for all
participants, upon a rudimentary showing that the
members of a collective have at least a little bit in
common with each other. In the absence of a clear
expression of legislative intent to the contrary, there
is no good reason to construe the FLSA in a manner
that requires casting aside sound case management
concepts and basic notions of fairness to litigants.

13
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
DEBORAH R. WHITE
RETAIL LITIGATION
CENTER, INC.
99 M Street, S.E.
Suite 700
Washington, D.C. 20003
ANGELO I. AMADOR
RESTAURANT LAW CENTER
2055 L Street, N.W.
Suite 700
Washington, D.C. 20036

PAUL DECAMP
Counsel of Record
GAREN E. DODGE
EPSTEIN, BECKER &
GREEN, P.C.
1227 25th Street, N.W.
Suite 700
Washington, D.C. 20037
(202) 861-0900
PDeCamp@ebglaw.com

Counsel for Amici Curiae
October 1, 2020

